                                                 NATIONAL SCIENCE FOUNDATION                     I

                                                  OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS
                                                                                                 I

                                            CLOSEOUT MEMORANDUM
                                                                                                 II


                                                                                                     U

Zase Number: 1-04100038                                                                     Page 1 of 1



        In October 2004, NSF OIG received a complaint alleging that an awardee1was fraudulently
        misusing and misappropriating funds budgeted for employee salary, and that employees of the
        company had not been paid for much of the work performed under the Award.

        Our investigation identified approximately $34,000 in award funds that the company could not
        adequately account for. These funds included specific expenditures for salary, travel and fringe
        benefits under the Award. Based on our findings, we referred this matter to the United States
        Attorney's Office in Newark, New Jersey. After reviewing the information they declined to
        move based on the minimal potential loss to the government.

        In response to the declination by the United States Attorney's Office we referred the matter to our
        Office of Audit for its consideration as a potential audit. We also notified NSF with a
        recommendation that they declare the current award and any potential future awards to this
        company as high-risk awards. We also recommended to NSF that it impose special award
        conditions to protect the disbursement of all remaining funds associated with the company's
        current award and place special issue flags in the NSF Awards System.

        Accordingly, this case is closed.




                                                                                                         I1

                                                                                                         I
ISF OIG Fom 2 (1 1/02)
